Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





GROWTH IN ADVANCED IMAGING 

 PAID UNDER THE MEDICARE 

  PHYSICIAN FEE SCHEDULE





                    Daniel R. Levinson

                     Inspector General 


                      October 2007

                     OEI-01-06-00260

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                S U M M A R Y


                  OBJECTIVE
                  To determine the extent and nature of growth in advanced imaging
                  paid under the Medicare Physician Fee Schedule from 1995 to 2005.


                  BACKGROUND
                  Advanced imaging used to be the exclusive domain of hospitals;
                  however, in the last 10 to 15 years, the Medicare program has seen
                  the use of these services—magnetic resonance (MR), computed
                  tomography (CT), and positron emission tomography (PET)—
                  proliferate in ambulatory settings.

                  The main Medicare payment systems for advanced imaging in
                  ambulatory settings are the Medicare Physician Fee Schedule (MPFS)
                  and the Hospital Outpatient Prospective Payment System (OPPS). In
                  general, the MPFS pays for services provided by noninstitutional
                  providers, such as doctors and independent diagnostic testing
                  facilities (IDTF), while the OPPS pays for services provided in
                  hospital outpatient departments.

                  Oversight of ambulatory settings that provide advanced imaging
                  includes accreditation and certification for hospital outpatient
                  departments and State licensure for IDTFs and doctors’ offices.
                  IDTFs must also meet basic standards to enroll in Medicare.
                  A 2006 Office of Inspector General (OIG) review of IDTFs found
                  substantial noncompliance with Medicare standards and
                  recommended that CMS consider conducting site visits of IDTFs. In
                  response, the Centers for Medicare & Medicaid Services (CMS) issued
                  regulations with new IDTF performance standards.

                  This study relies on Medicare Part B claims and enrollment data from
                  1995 to 2005.


                  FINDINGS
                  From 1995 to 2005, advanced imaging paid under the Medicare
                  Physician Fee Schedule grew more than fourfold, from 1.4 million to
                  6.2 million services. By 2005, advanced imaging billed under the MPFS
                  made up nearly one-quarter of all advanced imaging covered by Medicare.
                  Allowed charges and utilization rate per beneficiary grew by a similar
                  magnitude, to $3.5 billion and 163 services per 1,000 beneficiaries.


OEI-01-06-00260   GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   i
E X E C U T I V E                    S U           M M A R Y 



                   Services provided by IDTFs accounted for nearly 30 percent of
                   the total growth in advanced imaging under the MPFS. Between
                   1995 and 2005, the percentage of advanced imaging services paid
                   under the MPFS that were provided by Independent Physiological
                   Labs (IPL) and IDTFs grew from 2.6 to 23 percent. This represents a
                   growth of nearly 1.4 million services, or 29 percent of the growth in
                   advanced imaging from 1995 to 2005.
                   Growth varied widely among States, from 24 percent to over
                   1,000 percent. Between 1995 and 2005, the number of advanced
                   imaging services billed per 1,000 beneficiaries grew in every State, with
                   the median State’s utilization rate increasing from 29 to 126 services per
                   1,000 beneficiaries. States that began the period with the lowest rates
                   experienced the most growth. Levels of use in many of the high-growth
                   States, however, still do not approach those of States in which advanced
                   imaging is most frequently performed.
                   In every year from 1995 to 2005, a small number of procedure codes
                   consistently accounted for over half of all advanced imaging billed
                   under the MPFS. In each year, the 10 most frequently billed procedure
                   codes accounted for close to 60 percent of all advanced imaging services
                   billed under the MPFS. Top codes remained largely unchanged: four of
                   the top five codes were the same in 1995 and in 2005.


                   RECOMMENDATION
                   The growth in advanced imaging paid under the MPFS raises questions
                   and challenges for the Medicare program, particularly regarding the
                   quality and appropriateness of services. Ongoing OIG work is focusing
                   on different aspects of this growth, including a more specific
                   examination of how advanced imaging services are provided in
                   ambulatory settings. In light of the growth we describe in this report,
                   we recommend that:
                   CMS Monitor the Growth of Advanced Imaging Performed in
                   Ambulatory Settings
                   CMS should conduct such monitoring as part of its efforts to ensure that
                   Medicare beneficiaries receive reasonable, appropriate, and high-quality
                   imaging services in ambulatory settings. The rapid growth of IDTFs in
                   providing advanced imaging reinforces the importance of implementing
                   our prior recommendation that CMS consider conducting site visits to
                   monitor IDTFs’ compliance with Medicare requirements.


 OEI-01-06-00260   GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   ii
E X E C U T I V E                    S U           M M A R Y 





                   AGENCY COMMENTS
                   CMS concurred with our recommendation and shares OIG’s concern
                   about the growth of imaging services. CMS described steps it took in
                   July 2007 to improve oversight of IDTFs. CMS commented that IDTFs
                   receive site visits when newly enrolled and when reportable changes in
                   their operations occur. However, it stated that it lacks funding to
                   support unannounced site visits of IDTFs.




 OEI-01-06-00260   GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   iii
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 6

                   Advanced imaging grew more than fourfold . . . . . . . . . . . . . . . . . . 6 


                   Services provided by IDTFs grew the most . . . . . . . . . . . . . . . . . . . 8 


                   Growth varied widely among States . . . . . . . . . . . . . . . . . . . . . . . 10 


                   A few procedure codes accounted for over half of all services . . . . 13 




         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                   A: Methodology. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 


                   B: Data Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 


                   C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33 

I N T R O D        U C T          I O N
Δ    I N T R O D U C T I O N


                    OBJECTIVE
                    To determine the extent and nature of growth in advanced imaging
                    paid under the Medicare Physician Fee Schedule from 1995 to 2005.


                    BACKGROUND
                    Advanced imaging used to be the exclusive domain of hospitals;
                    however, in the last 10 to 15 years, the Medicare program has seen
                    the use of these services proliferate in ambulatory settings. This
                    study documents the extent and nature of this growth by analyzing
                    services paid under the Medicare Physician Fee Schedule (MPFS), one
                    of Medicare’s main payment systems for ambulatory care. Ongoing
                    Office of Inspector General (OIG) work will focus on how advanced
                    imaging services are furnished in ambulatory settings.
                    Overview of Advanced Imaging
                    Advanced imaging, such as magnetic resonance (MR), computed
                    tomography (CT), and positron emission tomography (PET), enables
                    doctors to diagnose and treat patients by providing detailed images of
                    tissues deep inside the body. Advances in technology are dramatically
                    expanding the number of clinical applications for advanced imaging.
                    MR, CT, and PET scans are used to detect and treat a growing
                    number of conditions, including cancer, heart disease, damage to
                    bones and organs, and brain disorders such as Alzheimer’s disease
                    and Parkinson’s disease. Technological progress has also facilitated
                    the provision of advanced imaging services in ambulatory settings,
                    which has the potential to increase convenience and improve health
                    outcomes for Medicare beneficiaries.
                    Components of Advanced Imaging
                    Medicare divides imaging services into two components: the technical
                    component, which is taking an image of the patient, and the
                    professional component, which is a doctor’s interpretation of the
                    image. Medicare may pay for the components separately if each was
                    performed by a different provider, or it may make a global payment to
                    one provider as payment for both components. Separate payments
                    are common for services performed in hospitals. For such services,
                    Medicare covers the technical component in its facility payment to the
                    hospital and makes a separate payment to a doctor for the
                    professional component.



 OEI-01-06-00260    GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   1
I N T R O D        U C T          I O N 



                    Payment for Advanced Imaging in Ambulatory Settings
                    The main Medicare payment systems for advanced imaging in
                    ambulatory settings are the MPFS and the Hospital Outpatient
                    Prospective Payment System (OPPS).1 The MPFS, effective in 1992,
                    establishes payment rates for services furnished by providers such as
                    doctors, group practices, independent diagnostic testing facilities
                    (IDTFs), and certain other medical professionals.2 Of note, the MPFS
                    covers the professional component of imaging, even for scans
                    performed in hospitals and hospital outpatient departments. The
                    OPPS, effective in 2000, covers the technical component of imaging
                    provided during visits to hospital outpatient departments.
                    Oversight of Ambulatory Settings That Provide Advanced Imaging
                    Oversight of ambulatory settings that provide advanced imaging in
                    the Medicare program varies. Hospital outpatient departments must
                    be part of a hospital that is enrolled in Medicare and maintains either
                    accreditation by an approved accreditor or certification by a State
                    survey agency.3 To earn accreditation or certification, hospitals must
                    demonstrate that they meet a set of minimum quality and safety
                    standards and undergo inspections to monitor their compliance.4
                    Doctors and group practices must maintain relevant professional
                    licensure in the State where they operate.5 IDTFs undergo an initial
                    onsite inspection by a Medicare carrier when they enroll in the
                    Medicare program and must remain compliant with standards
                    covering, among other things, the proficiency of employees, the
                    ordering of tests, and State licensure.6
                    Independent Diagnostic Testing Facilities
                    According to the Centers for Medicare & Medicaid Services (CMS), an
                    IDTF is a fixed location, a mobile entity, or an individual
                    nonphysician practitioner that performs diagnostic procedures.7
                    IDTFs may provide many different types of services; however,
                    diagnostic imaging represents the majority of their Medicare


                    1 Social Security Act § 1833(t). 

                    2 Social Security Act § 1848. 

                    3 Social Security Act § 1861(e); Social Security Act § 1865. 

                    4 42 CFR § 482. 

                    5 Social Security Act § 1861(r). 

                    6 42 CFR § 410.33; CMS, “Medicare Program Integrity Manual,” Chapter 10: Healthcare 

                    Provider/Supplier Enrollment (4196), Rev. 150, June 6, 2006. 

                    7 42 CFR § 410.33. 





 OEI-01-06-00260    GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   2
I N T R O D        U C T          I O N 



                    reimbursement.8 A freestanding imaging center in a medical office
                    park or shopping mall is one example of an IDTF.

                    The predecessors to IDTFs are independent physiological laboratories
                    (IPLs). In 1998, OIG issued two reports outlining problems and
                    vulnerabilities with IPLs, including providers out of compliance with
                    Medicare requirements and potential fraud and abuse.9 10 In 1999,
                    IDTFs effectively replaced IPLs; however, similar problems persist.
                    A 2006 OIG review of IDTFs found substantial noncompliance with
                    Medicare enrollment standards. That review also found claims that
                    did not meet Medicare billing requirements, leading to estimated
                    improper payments of $71.5 million.11 The report recommended that
                    CMS recover overpayments and consider performing site visits to
                    monitor compliance with IDTFs’ initial enrollment applications and
                    subsequent updates.

                    In December 2006, CMS issued final regulations that established
                    IDTF performance standards covering, among other things, liability
                    insurance, disclosure of ownership interests, and access to IDTFs and
                    their records through unannounced onsite inspections by CMS.12 In
                    the preamble to those regulations, CMS cited OIG’s report and other
                    concerns with IDTFs as the rationale for establishing performance
                    standards. CMS’s other concerns included fraud, which it had
                    identified in several States, and the over 400-percent growth in the
                    number of IDTFs in California billing Medicare between 2000 and
                    2005.




                    8 MedPAC, “A Data Book: Healthcare Spending and the Medicare Program,” June 2004,
                    p. 135.
                    9 OIG, “Independent Physiological Laboratories: Vulnerabilities Confronting Medicare,” 

                    OEI-05-97-00240, August 1998.

                    10 OIG, “Independent Physiological Laboratories: Carrier Perspectives,” OEI-05-97-00241, 

                    August 1998. 

                    11 OIG, “Review of Claims Billed by Independent Diagnostic Testing Facilities for Services 

                    Provided to Medicare Beneficiaries During Calendar Year 2001,” OAS-03-03-00002, June 

                    2006. 

                    12 71 FR 69,624, 69,695 (December 1, 2006) (to be codified at 42 CFR § 410). 





 OEI-01-06-00260    GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   3
I N T R O D        U C T          I O N 





                    METHODOLOGY
                    This study relies primarily on analysis of Medicare claims and
                    enrollment data.
                    Scope
                    This study focuses on advanced imaging services paid under the
                    MPFS from 1995 to 2005. In this study, we define advanced imaging
                    as CT, MR, and PET.
                    Analysis
                    We analyzed annual summary files of MPFS claims data from CMS’s
                    Part B Extract and Summary System (BESS). For each year, we used
                    Healthcare Common Procedure Coding System (HCPCS) procedure
                    codes to identify BESS records representing CT, MR, and PET
                    services. Once we identified records for advanced imaging, we used
                    the procedure modifier codes contained on the records to categorize
                    them as those for the technical component, the professional
                    component, or a global service.

                    We calculated allowed services and charges at the HCPCS level and
                    then summed these to create annual totals. Our count of services
                    paid under the MPFS is the sum of technical components and global
                    services. Our count of all advanced imaging services paid by
                    Medicare is the sum of those paid under the MPFS and those paid
                    outside of the MPFS. To calculate total allowed charges, we added
                    allowed charges for global services, technical component services, and
                    professional component services associated with technical component
                    claims.

                    We used annual enrollment files published on CMS’s Web site to
                    calculate utilization rates per 1,000 Medicare beneficiaries. We
                    subtracted beneficiaries in managed care plans from our counts
                    because services for these beneficiaries are not contained in the BESS
                    summary records that we used to count services.

                    To determine the types of providers that billed for advanced imaging,
                    we used the provider specialty code on the BESS summary records.
                    Of note, CMS considers an IDTF to be a provider specialty rather
                    than a place of service.

                    Please see Appendix A for a full discussion of our methodology.


 OEI-01-06-00260    GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   4
I N T R O D        U C T          I O N 



                    Standards
                    We conducted this study in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-01-06-00260    GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   5
Δ              F I N D I N G S

 From 1995 to 2005, advanced imaging paid                                                By 2005, advanced imaging paid
under the Medicare Physician Fee Schedule                                                under the MPFS made up nearly
grew more than fourfold, from 1.4 million to                                             one-quarter of all advanced
                                                                                         imaging paid by Medicare,
                       6.2 million services
                                                                                         increasing from 15 percent in 1995
                                                                                         to 23 percent in 2005. Over the
                                                    same period, advanced imaging billed by hospitals and other providers
                                                    paid outside of the MPFS grew by about 2.5 times. On average, the
                                                    number of allowed services paid under the MPFS grew by about
                                                    16 percent per year from 1995 to 2005. Growth was highest between
                                                    2000 and 2001, when the number of services increased 26 percent.
                                                    Chart 1 shows 10-year growth of MPFS advanced imaging by total
                                                    allowed services and total allowed charges. (See Tables 1 and 2 in
                                                    Appendix B for annual growth in services and charges for each imaging
                                                    modality.)


                                                           Chart 1: Growth in Allowed Services and Allowed Charges for

                                                              Advanced Imaging Paid Under the MPFS, 1995 to 2005


                                     7.0                                                                                                                           $7
                                                                                                                                                            6.2

                                     6.0                                                                                                                           $6
                                                                                                                                                    5.4




                                                                                                                                                                        Allowed charges (in $billions)
    Allowed services (in millions)




                                     5.0                                                                                                    4.5                    $5

                                                                                                                                   3.8
                                     4.0                                                                                                                           $4
                                                                                                                          3.1
                                     3.0                                                                   2.5                                             $3.46   $3
                                                                                             2.1                                                   $2.94
                                                                              1.8
                                     2.0            1.5       1.6                                                                                                  $2
                                            1.4                                                                                            $2.35
                                                                                                                                  $1.87
                                                                                                                         $1.62
                                     1.0                                                                                                                           $1
                                                                                                         $1.21
                                                                             $0.84         $0.97
                                           $0.62   $0.66     $0.70
                                     0.0                                                                                                                           $0
                                           1995    1996       1997           1998          1999           2000           2001     2002     2003    2004    2005

                                                                                 Allowed services                        Allowed charges

    Source: OIG analysis of Part B data, 2007.


                                                    From 1995 to 2005, the number of CT services grew fourfold, from just
                                                    over 800,000 to 3.2 million services. Over this period, the percentage of
                                                    all Medicare CT services paid under the MPFS grew from 11 to
                                                    16 percent.




OEI-01-06-00260                                     GROWTH    IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE                6
      F   I N D I N G                 S       



                                     The number of MR services also grew fourfold over this period, from
                                     about 630,000 to 2.7 million services. By 2005, 43 percent of all
                                     Medicare-covered MR services were paid under the MPFS, up from
                                     36 percent in 1995.

                                     PET was first covered by Medicare in 1996. As coverage of the
                                     technology expanded, it became the fastest growing of the three
                                     modalities, to about 228,000 services in 2005. Between 1996 and 2005,
                                     the share of all PET services that was paid under the MPFS increased
                                     from 26 to 59 percent.
                                     From 1995 to 2005, allowed charges grew more than fivefold, to $3.5 billion
                                     Because PET and MR are costlier than CT, their growth caused allowed
                                     charges to increase at a faster rate than allowed services.13 For
                                     example, although PET imaging accounts for only about 5 percent of the
                                     growth in services, it accounts for more than 18 percent of the growth in
                                     allowed charges. Similarly, MR accounts for about 45 percent of the
                                     growth in services, but 53 percent of the growth in allowed charges. See
                                     Chart 1 for growth in allowed charges overall. See Charts 2a and 2b to
                                     compare each modality’s share of total growth in services with its share
                                     of total growth in charges.

          Chart 2a: Percentage of Total Growth in Allowed 
                                                 Chart 2b: Percentage of Total Growth in Allowed
            Services by Imaging Modality, 1995 to 2005
                                                       Charges by Imaging Modality, 1995 to 2005
                      4.8%
                                                                                                                           18.3%




                                                        44.5%                      MR                                                                         MR
                                                                                   CT                                                                         CT
                                                                                                                                                 53.0%
                                                                                   PET                                                                        PET
              50.7%
                                                                                                                   28.7%




Source: OIG analysis of Part B data, 2007.


                                     The utilization rate of advanced imaging grew from 42 services per
                                     1,000 beneficiaries in 1995 to 163 in 2005
                                     After trailing the annual growth in MR utilization rates from 1996 to
                                     2001, annual growth of CT outpaced that of MR from 2002 to 2005. As
                                     of 2005, CT remained the most frequently used of the three modalities,

                                     13 Average allowed charges per service in 2005 for CT, MR, and PET were $351, $726, and
                                     $2,305, respectively.



          OEI-01-06-00260            GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE             7
F   I N D I N G                                           S       



                                                         with 85 services performed for every 1,000 beneficiaries. Chart 3 shows
                                                         growth in utilization rates for each type of imaging and for the three
                                                         modalities combined.


                                                        Chart 3: Growth in Advanced Imaging Utilization Rates, 1995 to 2005


                                          175
                                                                                                                                               163

                                          150
       Services per 1,000 Beneficiaries




                                          125

                                                                                                                                                               All modalities
                                          100                                                                                                                  CT
                                                                                                                                                 85
                                                                                                                                                               MR
                                          75                                                                                                                   PET
                                                                                                                                                 72

                                          50
                                                 42
                                                 24
                                          25
                                                  18
                                                                                                                                                     6
                                           0       0
                                                1995   1996   1997       1998       1999        2000       2001         2002     2003   2004   2005


    Source: OIG analysis of Part B data, 2007.




      Services provided by IDTFs accounted for                                                   Between 1995 and 2005, the
         nearly 30 percent of the total growth in                                                percentage of all advanced
             advanced imaging under the MPFS                                                     imaging services paid under the
                                                                                                 MPFS that were provided by IPLs
                                                         and IDTFs grew from 2.6 to 23 percent. This represents a growth of
                                                         nearly 1.4 million services. IDTFs accounted for almost 40 percent of
                                                         growth in MR and PET but only 20 percent of growth in CT. Although
                                                         the share of all services paid under the provider specialty category of
                                                         diagnostic radiology decreased between 1995 and 2005, the specialty
                                                         saw growth of more than 2.3 million services overall. See Tables 1 and
                                                         2 to compare the top five provider specialties in 1995 and 2005. (See
                                                         Tables 3 through 6 of Appendix B for counts of services by provider
                                                         specialty overall and for each type of imaging.)



    OEI-01-06-00260                                      GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE            8
F   I N D I N G       S        





                               Table 1: Concentration of MPFS Advanced Imaging Services by
                               Five Most Common Specialties, 1995

                                                                                                     Number of         Percentage of
                                    Specialty                                                         services         total services

                                    Diagnostic radiology                                              1,203,662                 83%

                                    Neurology                                                            39,203                  3%

                                    IDTF*                                                                37,939                  3%

                                    Multispecialty clinic/group                                          33,992                  2%

                                    Interventional radiology                                             28,991                  2%

                                        Total Top Five                                              1,343,787                  93%

                                * In 1995, IDTFs were classified as IPLs.


                               Table 2: Concentration of MPFS Advanced Imaging Services by
                               Five Most Common Specialties, 2005

                                                                                                     Number of         Percentage of
                                    Specialty                                                         services         total services

                                    Diagnostic radiology                                              3,556,470                 58%

                                    IDTF                                                              1,403,156                 23%

                                    Orthopedic surgery                                                  160,672                  3%

                                    Internal medicine                                                   132,097                  2%

                                    Hematology/oncology                                                 120,256                  2%

                                        Total Top Five                                              5,372,651                  88%

                                Source: OIG analysis of Part B data, 2007.



                      Chart 4 shows that while IDTFs account for a much larger share of total
                      services in 2005 than in 1995, diagnostic radiology is still the specialty
                      under which most advanced imaging is billed and accounted for half of
                      the growth between 1995 and 2005.




    OEI-01-06-00260   GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE               9
F   I N D I N G                              S       





                                          Chart 4: Advanced Imaging Services by Provider Specialty, 1995 and 2005



                              6,000,000




                              5,000,000



                                                                                                                                                  All other
                              4,000,000                                                                                                           specialties
          Services per year




                                                                                                                                                  IDTF


                              3,000,000                                                                                                           Diagnostic
                                                                                                                                                  radiology



                              2,000,000




                              1,000,000




                                     0
                                                            1995*                                                   2005

         * In 1995, IDTFs were classified as IPLs.

         Source: OIG analysis of Part B data, 2007.




                                Growth varied widely among States,                Between 1995 and 2005, the
                              from 24 percent to over 1,000 percent               number of MPFS advanced
                                            imaging services paid per 1,000 beneficiaries grew in every State and in
                                            one State more than tenfold. Typical growth was about 336 percent
                                            over the 10-year period, with the median State’s utilization rate
                                            increasing from 29 to 126 services per 1,000 beneficiaries.

                                            States that began the period with the lowest rates experienced the most
                                            growth. Levels of use in many of the high-growth States, however, still
                                            do not approach those of States in which advanced imaging is most
                                            frequently performed. For example, many Rocky Mountain States
                                            experienced high growth in the rate of services per beneficiary, but they
                                            still remain fairly low users of imaging relative to some southern and


    OEI-01-06-00260                         GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE                 10
F   I N D I N G       S        



                      northeastern States. See Figure 1 for growth in advanced imaging
                      services per 1,000 beneficiaries and Figure 2 for utilization rates in
                      2005.




    OEI-01-06-00260   GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   11
F   I N D I N G       S        





                      Wide variation remains in utilization rates across States
                      In 2005, the State with the lowest utilization rate, Vermont, had
                      8 advanced imaging services paid under the MPFS for every
                      1,000 beneficiaries. The State with the highest utilization rate in 2005,
                      Florida, had 326 services for every 1,000 beneficiaries. (See Table 7 in
                      Appendix B for growth in utilization rates by State.)




    OEI-01-06-00260   GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   12
 F   I N D I N G               S        




                In every year from 1995 to 2005,                      In 1995, the MPFS covered
a small number of procedure codes consistently                        77 different advanced imaging
                                                                      procedure codes. By 2005, this
 accounted for over half of all advanced imaging
                                                                      number had grown to 170, with
                           billed under the MPFS
                                                                      the greatest growth occuring in
                                                                      2001, when 53 new procedure
                              codes were included. Yet the bulk of billing volume remained
                              concentrated among a relatively small number of procedure codes. In
                              each of the 11 years from 1995 to 2005, the 10 most frequently billed
                              procedure codes accounted for about 60 percent of all advanced imaging
                              paid under the MPFS. Also, the most common procedure codes
                              remained largely unchanged. The combined list of top 10 codes for
                              every year between 1995 and 2005 comprises only 13 different codes,
                              and 4 of the top 5 procedure codes were the same in 1995 and in 2005.
                              See Table 3 for a list of the top 10 codes in 2005 and the number of
                              years each was in the top 10.


         Table 3: Ten Most Frequently Billed Advanced Imaging Procedure Codes, 2005

                                                                                                                                             Number of
                                                                                                                                            years in the
                                                                                                            Number of     Percentage of     top 10 from
           Procedure code           Procedure description*                                                   services     total services   1995 to 2005

           72148                    MRI lumbar spine w/o dye                                                  557,646                 9%             11

           72193                    CT pelvis w/dye                                                           421,056                 7%             11

           71260                    CT thorax w/dye                                                           392,140                 6%             11

           70553                    MRI brain w/o & w/dye                                                     366,977                 6%             11

           74160                    CT abdomen w/dye                                                          351,257                 6%             11

           73721                    MRI joint of lower extremity w/o dye                                      336,795                 5%             10

           74170                    CT abdomen w/o & w/dye                                                    307,854                 5%             11

           71250                    CT thorax w/o dye                                                         265,931                 4%              4

           73221                    MRI joint upper extremity w/o dye                                         239,545                 4%              2

           72141                    MRI neck spine w/o dye                                                    225,293                 4%             11

              Total                                                                                        3,464,494                 56%

          * Procedure descriptions are copyrighted by the American Medical Association.


          Source: OIG analysis of Part B data, 2007.





     OEI-01-06-00260          GROWTH    IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE           13
Δ   C O
    R E C
        N O
          C M
            L UM SE IN OD NA T I O N



                  The growth of advanced imaging in ambulatory settings—those for
                  which Medicare payment is made under the MPFS—is a trend that is
                  likely to continue as new technology and clinical applications become
                  available. Although this growth has the potential to increase
                  convenience and improve health outcomes for beneficiaries, it also
                  raises questions and challenges for the Medicare program. For
                  example, the wide range of growth and utilization rates across States
                  raises questions about what drives variability in the use of advanced
                  imaging. Growth of advanced imaging in ambulatory settings poses a
                  challenge for quality oversight of the Medicare program. Rapid growth
                  also raises concerns about inappropriate use of services, which can be
                  costly for both Medicare and its beneficiaries. Ongoing OIG work is
                  focusing on different aspects of this growth, including a more specific
                  examination of how advanced imaging services are provided in
                  ambulatory settings.

                  IDTFs are increasingly prominent providers of advanced imaging
                  services. In 2005, they provided 1.4 million services, or 23 percent of all
                  advanced imaging paid under the MPFS. In 2006, an OIG review found
                  numerous problems with IDTFs, including noncompliance with
                  Medicare requirements and services that were not reasonable and
                  necessary.14 At that time, OIG recommended that CMS consider
                  performing site visits to monitor compliance with IDTFs’ enrollment
                  applications and subsequent updates. In response to OIG’s review,
                  CMS issued final regulations that established IDTF performance
                  standards.15 In January 2007, CMS issued a transmittal giving
                  technical direction to Medicare carriers regarding oversight of the new
                  performance standards. CMS rescinded this transmittal in February
                  2007.16
                  In our draft report, we recommended that CMS monitor the growth of
                  advanced imaging performed in ambulatory settings. As part of such
                  monitoring, we stated that CMS should reissue technical direction to




                  14 Department of Health and Human Services, OIG, “Review of Claims Billed by
                  Independent Diagnostic Testing Facilities for Services Provided to Medicare Beneficiaries
                  During Calendar Year 2001,” OAS-03-03-00002, June 2006.
                  15 71 FR 69,624, 69,695 (December 1, 2006) (to be codified at 42 CFR part 410).
                  16 CMS, Transmittal 187, January 26, 2007.




OEI-01-06-00260   GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   14
R   E C     O    M    M   E   N D         A T          I     O      N



                          Medicare carriers regarding oversight of the new IDTF performance
                          standards.

                          Subsequent to OIG’s issuance of the draft report, CMS issued new
                          technical direction to the Medicare carriers regarding the IDTF
                          performance standards on July 13, 2007.17 It also published a proposed
                          rule in the Federal Register on July 12, 2007, that if adopted would
                          revise and clarify the IDTF performance standards. Although these
                          actions partially address our recommendation, we continue to
                          recommend that:
                          CMS Monitor the Growth of Advanced Imaging Performed in
                          Ambulatory Settings
                          CMS should conduct such monitoring as part of its efforts to ensure that
                          Medicare beneficiaries receive reasonable, appropriate, and high-quality
                          imaging services in all ambulatory settings, including IDTFs. Further,
                          the rapid growth of IDTFs in providing advanced imaging reinforces the
                          importance of implementing our prior recommendation that CMS
                          consider conducting site visits to monitor IDTFs’ compliance with
                          Medicare requirements.




                          AGENCY COMMENTS
                          CMS concurred with our recommendation and shares OIG’s concern
                          about the growth in advanced imaging. CMS described steps it took in
                          July 2007 to improve oversight of IDTFs, including issuing new
                          technical direction regarding the IDTF performance standards and a
                          proposed rule to revise and clarify the standards. CMS commented that
                          it requires contractors to conduct site visits of IDTFs when newly
                          enrolled and when reportable changes in their operations occur.
                          However, it stated that it lacks funding to support unannounced site
                          visits to IDTFs. The full text of CMS’s comments is provided in
                          Appendix C.




                          17 CMS, Transmittal 216, July 13, 2007.




    OEI-01-06-00260       GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   15
R   E C O        M M E N D A T                      I O N
Δ       A P P E N D I X ~ A




                      METHODOLOGY
                      This study relies primarily on analysis of Medicare claims and
                      enrollment data.
                      Scope
                      This study focuses on advanced imaging services paid under the
                      Medicare Physician Fee Schedule (MPFS) from 1995 to 2005 for the
                      50 States, the District of Columbia, and Puerto Rico. In this study,
                      we define advanced imaging as computed tomography, magnetic
                      resonance, and positron emission tomography. We identify imaging
                      services using the technical portion of the service. Thus, we count a
                      service as paid under the MPFS if its technical component was paid
                      under the MPFS, either as a claim for the technical component only or
                      as a claim for the global service. When only the professional
                      component of an imaging service was paid under the MPFS, we
                      consider it covered outside of the MPFS.
                      Analysis
                      We analyzed annual summary files of MPFS claims data from the
                      Centers for Medicare & Medicaid Services (CMS) Part B Extract and
                      Summary System (BESS). For each year, these files contain counts of
                      allowed services and charges by Healthcare Common Procedure
                      Coding System (HCPCS) procedure code, with detailed totals by
                      procedure modifier code, Medicare carrier number, provider specialty
                      code, and other variables.

                      To identify records for advanced imaging services in each annual file,
                      we compiled a list of HCPCS codes specific to that year. We developed
                      these lists by examining narrative descriptions of the procedure codes
                      in CMS’s annual HCPCS file, analyzing Medicare coverage policy, and
                      reviewing printed coding manuals published by CMS and the
                      American Medical Association.

                      Once we identified records for advanced imaging, we used the
                      procedure modifier codes to determine whether the record referred to
                      the technical component, the professional component, or a global
                      service. We identified technical component records by checking the
                      first and second modifier variables for the value of “TC.” We
                      identified professional component records by checking for a value of
                      “26.” We identified global services by checking for either no modifiers
                      or for any value other than “TC” or “26.” After categorizing the

    OEI-01-06-00260   GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   16
A   P   P E N D       I X ~         A          



                      records, we summed allowed services by State, HCPCS code,
                      component of service, and provider specialty code.

                      To calculate the percentage of advanced imaging services paid under
                      the MPFS, we needed to determine the number of advanced imaging
                      services reimbursed under some payment system other than the
                      MPFS. Since the professional component of imaging is paid under the
                      MPFS, we used professional component services paid under the MPFS
                      that did not have corresponding technical component services as a
                      proxy for services provided outside of the MPFS. Thus, for each
                      HCPCS code, we subtracted the total count of services billed as the
                      technical component from the total count of services billed as the
                      professional component. The remaining professional component
                      services represent the count of services paid under some system other
                      than the MPFS for that HCPCS code.

                      To calculate total allowed charges, we summed allowed charges by
                      HCPCS code. Allowed charges for each HCPCS code include those for
                      global services, technical component services, and professional
                      component services associated with MPFS technical component
                      claims. First, we summed allowed services and charges for technical
                      component claims. Next, we calculated average allowed charges per
                      professional component service for each HCPCS code. We then
                      multiplied the count of technical component services by the average
                      allowed charge for the professional component to arrive at allowed
                      charges for the professional component services. Finally, we summed
                      technical, professional, and global charges to calculate total charges
                      for each HCPCS code. To reflect geographic variation in
                      reimbursement amounts, we calculated charges by HCPCS code at
                      the carrier pricing locality level.

                      We used annual enrollment files published on CMS’s Web site by its
                      Center for Beneficiary Choices to calculate utilization rates per
                      1,000 Medicare beneficiaries. Each annual file contains county-level
                      counts of beneficiaries with Part A or Part B coverage and of those
                      enrolled in managed care plans. For our analysis, we summarized
                      these files to the State level. We subtracted beneficiaries in managed
                      care plans from our counts because services for these beneficiaries are
                      not contained in the BESS summary records that we used to count
                      services.

                      To determine the types of providers that billed for advanced imaging,
                      we used the provider specialty code on the BESS summary records.

    OEI-01-06-00260   GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   17
A   P P E N D         I X ~         A          



                      Of note, because CMS identifies IDTFs as a provider specialty, we
                      used the provider specialty code to identify services provided by
                      IDTFs.

                      We used SAS software to conduct our analysis.
                      Limitations
                      This study relies on data produced by CMS; we did not attempt to
                      independently verify these data.

                      Our analysis is limited by the way CMS collects and maintains the data
                      we used for this study. Because of a limitation in the enrollment data
                      we used, we were unable to include Railroad Retirement Board
                      beneficiaries in our State-level counts of beneficiary populations. There
                      were about 600,000 of these beneficiaries in 2005. Also, the annual
                      enrollment figures we used overstate the population by 2 to 3.5 percent
                      because they include all beneficiaries who had Part A or B coverage at
                      any point during the year.

                      We base our calculations of the percentage of services paid under the
                      MPFS and of allowed charges on the assumption that each technical
                      component service has one professional component service. Our tests
                      against the 100-percent Part B National Claims History file for 2004
                      show that, while this assumption is largely true, it is not entirely so.
                      Therefore, we acknowledge that using the data in this way could cause
                      us to slightly overstate these calculations.




    OEI-01-06-00260   GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   18
 Δ          A P P E N D I X ~ B


Table 1: Growth in Allowed Services for Advanced Imaging Under the MPFS, by Year, 1995 to 2005


           Three modalities combined                              CT                                              MR                                      PET

                             Percentage                                   Percentage                                     Percentage                               Percentage
                            change from                                  change from                                    change from                              change from
 Year   Allowed services   previous year   Allowed services             previous year       Allowed services           previous year   Allowed services         previous year

 1995          1,443,496                               813,533                                          629,963                                     n/a                   n/a

 1996          1,547,568           7.2%                854,894                     5.1%                 692,007                9.8%                667                    n/a

 1997          1,649,677           6.6%                878,929                     2.8%                 769,989               11.3%                759                  13.8%

 1998          1,841,568          11.6%                974,631                   10.9%                  865,512               12.4%              1,425                  87.7%

 1999          2,073,473          12.6%              1,081,697                   11.0%                  987,827               14.1%              3,949               177.1%

 2000          2,489,501          20.1%              1,281,810                   18.5%                1,197,107               21.2%             10,584               168.0%

 2001          3,143,334          26.3%              1,575,105                   22.9%                1,521,171               27.1%             47,058               344.6%

 2002          3,845,067          22.3%              1,944,322                   23.4%                1,830,805               20.4%             69,940                  48.6%

 2003          4,526,251          17.7%              2,296,345                   18.1%                2,115,620               15.6%            114,286                  63.4%

 2004          5,385,696          19.0%              2,742,063                   19.4%                2,476,251               17.0%            167,382                  46.5%

 2005          6,161,162          14.4%              3,203,399                   16.8%                2,729,321               10.2%            228,442                  36.5%




Table 2: Growth in Allowed Charges for Advanced Imaging Under the MPFS, by Year, 1995 to 2005


           Three modalities combined                              CT                                              MR                                      PET

                             Percentage                                   Percentage                                     Percentage                               Percentage
                            change from                                  change from                                    change from                              change from
 Year   Allowed charges    previous year   Allowed charges              previous year           Allowed charges        previous year   Allowed charges          previous year

 1995      $617,211,512             n/a         $232,573,625                         n/a           $384,637,887                 n/a                 n/a                   n/a

 1996      $661,031,293            7.1%         $240,126,894                       3.2%            $419,980,806                9.2%           $923,593                    n/a

 1997      $699,923,303            5.9%         $242,616,653                       1.0%            $456,200,175                8.6%         $1,106,475                  19.8%

 1998      $841,894,277           20.3%         $286,436,669                     18.1%             $552,934,338               21.2%         $2,523,270               128.0%

 1999      $966,552,545           14.8%         $323,285,552                     12.9%             $635,363,604               14.9%         $7,903,390               213.2%

 2000     $1,210,063,498          25.2%         $398,272,190                     23.2%             $789,565,479               24.3%        $22,225,829               181.2%

 2001     $1,624,150,492          34.2%         $505,870,196                     27.0%           $1,047,661,561               32.7%        $70,618,735               217.7%

 2002     $1,866,251,391          14.9%         $567,527,989                     12.2%           $1,150,387,917                9.8%       $148,335,485               110.1%

 2003     $2,348,112,112          25.8%         $705,542,485                     24.3%           $1,393,543,032               21.1%       $249,026,596                  67.9%

 2004     $2,944,462,862          25.4%         $882,192,069                     25.0%           $1,694,607,425               21.6%       $367,663,368                  47.6%

 2005     $3,461,225,352          17.6%      $1,047,959,778                      18.8%           $1,893,326,580               11.7%       $519,938,995                  41.4%

 Note: In all tables in this appendix, MPFS refers to the Medicare Physician Fee Schedule, CT to computed tomography, MR to
 magnetic resonance, and PET to positron emission tomography.


        OEI-01-06-00260         GROWTH     IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE                              19
      A   P    P E N D                 I X ~          B          



Table 3: Number and Percentage of Advanced Imaging Services Billed Under the MPFS, by Provider Specialty, in
1995 and 2005

                                                               Number of advanced                         Percentage of   Number of advanced        Percentage of
 Specialty                                                       imaging services,                    advanced imaging      imaging services,   advanced imaging
 Code           Specialty Description*                                       1995                        services, 1995                 2005       services, 2005

 00             Carrier wide                                                           49                        0.00%                     0               0.00%

 01             General practice                                                   7,125                         0.49%                22,560               0.37%

 02             General surgery                                                    3,153                         0.22%                 7,946               0.13%

 03             Allergy/immunology                                                   130                         0.01%                 1,282               0.02%

 04             Otolaryngology                                                     2,402                         0.17%                24,487               0.40%

 05             Anesthesiology                                                       565                         0.04%                 7,549               0.12%

 06             Cardiology                                                         1,954                         0.14%                57,086               0.93%

 07             Dermatology                                                            45                        0.00%                 2,604               0.04%

 08             Family practice                                                    6,642                         0.46%                75,573               1.23%

 09             Gynecology                                                              0                        0.00%                 1,540               0.02%

 10             Gastroenterology                                                   2,583                         0.18%                13,645               0.22%

 11             Internal medicine                                                 16,599                         1.15%               132,097               2.14%

 12             Osteopathic therapy                                                     9                        0.00%                   515               0.01%

 13             Neurology                                                         39,203                         2.72%                74,805               1.21%

 14             Neurosurgery                                                       4,127                         0.29%                24,256               0.39%

 16             Obstetrics/gynecology                                                541                         0.04%                 2,547               0.04%

 18             Ophthalmology                                                        195                         0.01%                   526               0.01%

 19             Oral surgery                                                           41                        0.00%                   197               0.00%

 20             Orthopedic surgery                                                 4,841                         0.34%               160,672               2.61%

 22             Pathology                                                              17                        0.00%                   240               0.00%

 24             Plastic surgery                                                        86                        0.01%                   630               0.01%

 25             Physical medicine/rehab                                              198                         0.01%                 9,324               0.15%

 26             Psychiatry                                                             42                        0.00%                   265               0.00%

 28             Colorectal surgery                                                     33                        0.00%                   178               0.00%

 29             Pulmonary disease                                                  2,281                         0.16%                18,516               0.30%

 30             Diagnostic radiology                                          1,203,662                         83.39%              3,556,470             57.72%

 31             Roentgenology, radiology**                                              0                        0.00%                     0               0.00%

 33             Thoracic surgery                                                   1,398                         0.10%                 3,755               0.06%

 34             Urology                                                            1,572                         0.11%                79,498               1.29%

 36             Nuclear medicine                                                   7,805                         0.54%                32,285               0.52%

 37             Pediatric medicine                                                   124                         0.01%                   710               0.01%

 38             Geriatric medicine                                                     75                        0.01%                   479               0.01%

 39             Nephrology                                                           346                         0.02%                 3,058               0.05%

 40             Hand surgery                                                            2                        0.00%                 1,869               0.03%

 41             Optometry                                                               0                        0.00%                     1               0.00%

 42             Cert nurse midwife**                                                    0                        0.00%                     0               0.00%

 43             CRNA, anesth asst**                                                     0                        0.00%                     0               0.00%

 44             Infectious disease                                                   162                         0.01%                 2,071               0.03%

 45             Mammog screening center                                                21                        0.00%                     0               0.00%

 46             Endocrinology                                                        533                         0.04%                 2,778               0.05%

 47             IDTF                                                                    0                        0.00%              1,403,150             22.77%
 * As listed in the Centers for Medicare & Medicaid Services (CMS) documentation.

 ** Specialty billed at least one advanced imaging service between 1995 and 2005, even though counts in 1995 and 2005 were zero.




          OEI-01-06-00260               GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE               20
      A    P   P E N D                  I X ~           B          


Table 3 (continued): Number and Percentage of Advanced Imaging Services Billed Under the MPFS, by Provider
Specialty, in 1995 and 2005

                                                                 Number of advanced                         Percentage of   Number of advanced        Percentage of
 Specialty                                                         imaging services,                    advanced imaging      imaging services,   advanced imaging
 Code           Specialty Description*                                         1995                        services, 1995                 2005       services, 2005

 48             Podiatry                                                               127                         0.01%                 3,174               0.05%

 49             ASC                                                                       3                        0.00%                     6               0.00%

 50             Nurse practitioner                                                        1                        0.00%                 2,903               0.05%

 51             Med supply w/orthotist                                              1,195                          0.08%                     0               0.00%

 54             Medical supply company                                                  56                         0.00%                     0               0.00%

 58             Med supply w/pharmacist                                                   1                        0.00%                     0               0.00%

 59             Ambulance service supplier**                                              0                        0.00%                     0               0.00%

 60             Public hlth/welfare agency                                                6                        0.00%                     2               0.00%

 63             Portable X-ray supplier                                             8,408                          0.58%                 4,446               0.07%

 65             Physical therapist                                                        0                        0.00%                     4               0.00%

 66             Rheumatology                                                        2,800                          0.19%                27,669               0.45%

 68             Clinical psychologist**                                                   0                        0.00%                     0               0.00%

 69             Clinical laboratory                                                 2,578                          0.18%                   170               0.00%

 70             Multispec clinic/group                                             33,992                          2.35%                 3,836               0.06%

 71             Diagnostic X-ray**                                                        0                        0.00%                     0               0.00%

 72             Diagnostic laboratory                                                     0                        0.00%                 1,462               0.02%

 74             Occupational therapy                                                      0                        0.00%                 7,712               0.13%

 75             Other medical care**                                                      0                        0.00%                     0               0.00%

 76             Peripheral vascular disease                                             51                         0.00%                    90               0.00%

 77             Vascular surgery                                                       219                         0.02%                 1,895               0.03%

 78             Cardiac surgery                                                         43                         0.00%                  2,004              0.03%

 79             Addiction medicine**                                                      0                        0.00%                     0               0.00%

 80             Licensed clin social worker**                                             0                        0.00%                     0               0.00%

 81             Critical care (intensivists)                                            32                         0.00%                 1,750               0.03%

 82             Hematology                                                             130                         0.01%                  3,043              0.05%

 83             Hematology/oncology                                                 8,196                          0.57%               120,256               1.95%

 84             Preventive medicine                                                     10                         0.00%                   204               0.00%

 85             Maxillofacial surgery                                                   21                         0.00%                    36               0.00%

 86             Neuropsychiatry                                                         49                         0.00%                   218               0.00%

 87             All other suppliers                                                     15                         0.00%                     0               0.00%

 88             Unkn suppl/provider spclty                                          1,467                          0.10%                     4               0.00%

 89             Cert clin nurse specialist                                                0                        0.00%                    57               0.00%

 90             Medical oncology                                                    2,590                          0.18%                58,253               0.95%

 91             Surgical oncology                                                      118                         0.01%                  1,130              0.02%

 92             Radiation oncology                                                  4,870                          0.34%               107,578               1.75%

 93             Emergency medicine                                                     548                         0.04%                  6,700              0.11%

 94             Interventional radiology                                           28,991                          2.01%                72,359               1.17%

 95             Indep physiological lab                                            37,939                          2.63%                     6               0.00%

 97             Physician assistant                                                       0                        0.00%                 3,775               0.06%

 98             Gynecologist/oncologist                                                388                         0.03%                 4,836               0.08%

 99             Unknown physician specialty                                             91                         0.01%                   420               0.01%

   Total                                                                     1,443,496                          100.00%             6,161,162            100.00%
 * As listed in CMS documentation.

 ** Specialty billed at least one advanced imaging service between 1995 and 2005, even though counts in 1995 and 2005 were zero.




          OEI-01-06-00260                 GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE               21
      A   P    P E N D                 I X ~          B          



Table 4: Number and Percentage of CT Services Billed Under the MPFS, by Provider Specialty, in 1995 and 2005


 Specialty                                                             Number of CT                   Percentage of CT         Number of CT     Percentage of CT
 Code           Specialty Description*                                 services, 1995                    services, 1995        services, 2005      services, 2005

 00             Carrier wide                                                           32                        0.00%                     0              0.00%

 01             General practice                                                   4,826                         0.59%                14,753              0.46%

 02             General surgery                                                    2,676                         0.33%                 6,273              0.20%

 03             Allergy/immunology                                                     84                        0.01%                 1,162              0.04%

 04             Otolaryngology                                                     2,208                         0.27%                23,657              0.74%

 05             Anesthesiology                                                       306                         0.04%                 2,935              0.09%

 06             Cardiology                                                         1,812                         0.22%                45,489              1.42%

 07             Dermatology                                                            43                        0.01%                 1,658              0.05%

 08             Family practice                                                    5,953                         0.73%                53,737              1.68%

 09             Gynecology                                                              0                        0.00%                   783              0.02%

 10             Gastroenterology                                                   2,572                         0.32%                13,273              0.41%

 11             Internal medicine                                                14,922                          1.83%               102,474              3.20%

 12             Osteopathic therapy                                                     6                        0.00%                    33              0.00%

 13             Neurology                                                        14,462                          1.78%                 9,248              0.29%

 14             Neurosurgery                                                       2,290                         0.28%                 3,553              0.11%

 16             Obstetrics/gynecology                                                448                         0.06%                 2,440              0.08%

 18             Ophthalmology                                                        153                         0.02%                   210              0.01%

 19             Oral surgery                                                           33                        0.00%                   197              0.01%

 20             Orthopedic surgery                                                 1,225                         0.15%                 2,638              0.08%

 22             Pathology                                                              15                        0.00%                   159              0.00%

 24             Plastic surgery                                                        28                        0.00%                   236              0.01%

 25             Physical medicine/rehab                                                52                        0.01%                   351              0.01%

 26             Psychiatry                                                             31                        0.00%                    32              0.00%

 28             Colorectal surgery                                                     33                        0.00%                   174              0.01%

 29             Pulmonary disease                                                  2,216                         0.27%                17,130              0.53%

 30             Diagnostic radiology                                            681,538                         83.78%             1,985,698             61.99%

 31             Roentgenology, radiology**                                              0                        0.00%                     0              0.00%

 33             Thoracic surgery                                                   1,206                         0.15%                 3,463              0.11%

 34             Urology                                                            1,499                         0.18%                78,782              2.46%

 36             Nuclear medicine                                                   3,394                         0.42%                 9,819              0.31%

 37             Pediatric medicine                                                     59                        0.01%                   360              0.01%

 38             Geriatric medicine                                                     75                        0.01%                   265              0.01%

 39             Nephrology                                                           337                         0.04%                   767              0.02%

 40             Hand surgery                                                            1                        0.00%                    53              0.00%

 41             Optometry                                                               0                        0.00%                     1              0.00%

 42             Cert nurse midwife**                                                    0                        0.00%                     0              0.00%

 43             CRNA, anesth asst**                                                     0                        0.00%                     0              0.00%

 44             Infectious disease                                                   151                         0.02%                 1,374              0.04%

 45             Mammog screening center                                                21                        0.00%                     0              0.00%

 46             Endocrinology                                                        514                         0.06%                 2,011              0.06%

 47             IDTF                                                                    0                        0.00%               488,306             15.24%
 * As listed in CMS documentation.

 ** Specialty billed at least one advanced imaging service between 1995 and 2005, even though counts in 1995 and 2005 were zero.





          OEI-01-06-00260               GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE              22
      A    P   P E N D                  I X ~           B          


Table 4 (continued): Number and Percentage of CT Services Billed Under the MPFS, by Provider Specialty, in 1995
and 2005

 Specialty                                                                Number of CT                  Percentage of CT         Number of CT     Percentage of CT
 Code           Specialty Description*                                    services, 1995                   services, 1995        services, 2005      services, 2005

 48             Podiatry                                                                 16                        0.00%                    13              0.00%

 49             ASC                                                                        2                       0.00%                     6              0.00%

 50             Nurse practitioner                                                         1                       0.00%                 2,000              0.06%

 54             Medical supply company                                                   10                        0.00%                     0              0.00%

 58             Med supply w/pharmacist**                                                  0                       0.00%                     0              0.00%

 59             Ambulance service supplier**                                               0                       0.00%                     0              0.00%

 60             Public hlth/welfare agency                                                 5                       0.00%                     1              0.00%

 63             Portable X-ray supplier                                              4,720                         0.58%                 4,132              0.13%

 65             Physical therapist**                                                       0                       0.00%                     0              0.00%

 66             Rheumatology                                                         2,596                         0.32%                 2,665              0.08%

 68             Clinical psychologist**                                                    0                       0.00%                     0              0.00%

 69             Clinical laboratory                                                     102                        0.01%                   162              0.01%

 70             Multispec clinic/group                                              20,653                         2.54%                 2,014              0.06%

 71             Diagnostic X-ray**                                                         0                       0.00%                     0              0.00%

 72             Diagnostic laboratory                                                      0                       0.00%                   113              0.00%

 74             Occupational therapy                                                       0                       0.00%                 7,173              0.22%

 75             Other medical care**                                                       0                       0.00%                     0              0.00%

 76             Peripheral vascular disease                                              51                        0.01%                    78              0.00%

 77             Vascular surgery                                                        210                        0.03%                 1,834              0.06%

 78             Cardiac surgery                                                          42                        0.01%                 1,989              0.06%

 79             Addiction medicine**                                                       8                       0.00%                     8              0.00%

 81             Critical care (intensivists)                                             32                        0.00%                 1,476              0.05%

 82             Hematology                                                              116                        0.01%                 2,308              0.07%

 83             Hematology/oncology                                                  8,005                         0.98%               103,526              3.23%

 84             Preventive medicine                                                      10                        0.00%                     4              0.00%

 85             Maxillofacial surgery                                                    19                        0.00%                    34              0.00%

 86             Neuropsychiatry                                                          49                        0.01%                   217              0.01%

 87             All other suppliers                                                      13                        0.00%                     0              0.00%

 88             Unkn suppl/provider spclty                                               58                        0.01%                     3              0.00%

 89             Cert clin nurse specialist                                                 0                       0.00%                    57              0.00%

 90             Medical oncology                                                     2,396                         0.29%                51,569              1.61%

 91             Surgical oncology                                                       118                        0.01%                   533              0.02%

 92             Radiation oncology                                                   4,663                         0.57%                94,568              2.95%

 93             Emergency medicine                                                      456                        0.06%                 3,716              0.12%

 94             Interventional radiology                                            18,171                         2.23%                43,038              1.34%

 95             Indep physiological lab                                              5,409                         0.66%                     4              0.00%

 97             Physician assistant                                                        0                       0.00%                 2,091              0.07%

 98             Gynecologist/oncologist                                                 388                        0.05%                 4,551              0.14%

 99             Unknown physician specialty                                                1                       0.00%                    30              0.00%

   Total                                                                        813,541                         100.00%            3,203,407            100.00%
 * As listed in CMS documentation.

 ** Specialty billed at least one advanced imaging service between 1995 and 2005, even though counts in 1995 and 2005 were zero.





          OEI-01-06-00260                 GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE              23
      A   P    P E N D                 I X ~          B          



Table 5: Number and Percentage of MR Services Billed Under the MPFS, by Provider Specialty, in 1995 and 2005


 Specialty                                                              Number of MR                  Percentage of MR         Number of MR     Percentage of MR
 Code           Specialty Description*                                  services, 1995                   services, 1995        services, 2005      services, 2005

 00             Carrier wide                                                           17                        0.00%                     0               0.00%

 01             General practice                                                   2,299                         0.36%                 7,634               0.28%

 02             General surgery                                                       477                        0.08%                 1,488               0.05%

 03             Allergy/immunology                                                     46                        0.01%                   118               0.00%

 04             Otolaryngology                                                        194                        0.03%                   814               0.03%

 05             Anesthesiology                                                        259                        0.04%                 4,537               0.17%

 06             Cardiology                                                            142                        0.02%                 5,794               0.21%

 07             Dermatology                                                              2                       0.00%                   919               0.03%

 08             Family practice                                                       689                        0.11%                21,651               0.79%

 09             Gynecology                                                               0                       0.00%                   757               0.03%

 10             Gastroenterology                                                       11                        0.00%                   332               0.01%

 11             Internal medicine                                                  1,677                         0.27%                28,191               1.03%

 12             Osteopathic therapy                                                      3                       0.00%                   482               0.02%

 13             Neurology                                                         24,741                         3.93%                64,899               2.38%

 14             Neurosurgery                                                       1,837                         0.29%                20,703               0.76%

 16             Obstetrics/gynecology                                                  93                        0.01%                   103               0.00%

 18             Ophthalmology                                                          42                        0.01%                   314               0.01%

 19             Oral surgery                                                             8                       0.00%                     0               0.00%

 20             Orthopedic surgery                                                 3,616                         0.57%               158,034               5.79%

 22             Pathology                                                                2                       0.00%                    23               0.00%

 24             Plastic surgery                                                        58                        0.01%                   392               0.01%

 25             Physical medicine/rehab                                               146                        0.02%                 8,973               0.33%

 26             Psychiatry                                                             11                        0.00%                   232               0.01%

 28             Colorectal surgery                                                       0                       0.00%                     4               0.00%

 29             Pulmonary disease                                                      65                        0.01%                   850               0.03%

 30             Diagnostic radiology                                            522,124                         82.88%             1,489,077             54.56%

 33             Thoracic surgery                                                      192                        0.03%                   279               0.01%

 34             Urology                                                                73                        0.01%                   678               0.02%

 36             Nuclear medicine                                                   4,411                         0.70%                 4,100               0.15%

 37             Pediatric medicine                                                     65                        0.01%                   350               0.01%

 38             Geriatric medicine                                                       0                       0.00%                   214               0.01%

 39             Nephrology                                                               9                       0.00%                 2,274               0.08%

 40             Hand surgery                                                             1                       0.00%                 1,816               0.07%

 41             Optometry**                                                              0                       0.00%                     0               0.00%

 42             Cert nurse midwife**                                                     0                       0.00%                     0               0.00%

 43             CRNA, anesth asst**                                                      0                       0.00%                     0               0.00%

 44             Infectious disease                                                     11                        0.00%                   695               0.03%

 45             Mammog screening center**                                                0                       0.00%                     0               0.00%

 46             Endocrinology                                                          19                        0.00%                   711               0.03%

 47             IDTF                                                                     0                       0.00%               826,497             30.28%
 * As listed in CMS documentation.

 ** Specialty billed at least one advanced imaging service between 1995 and 2005, even though counts in 1995 and 2005 were zero.





          OEI-01-06-00260               GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE              24
      A    P   P E N D                  I X ~           B          


Table 5 (continued): Number and Percentage of MR Services Billed Under the MPFS, by Provider Specialty, in 1995
and 2005

 Specialty                                                               Number of MR                   Percentage of MR        Number of MR     Percentage of MR
 Code           Specialty Description*                                   services, 1995                    services, 1995       services, 2005      services, 2005

 48             Podiatry                                                              111                          0.02%                3,161               0.12%

 49             ASC                                                                      1                         0.00%                    0               0.00%

 50             Nurse practitioner                                                       0                         0.00%                  901               0.03%

 51             Med supply w/orthotist                                              1,195                          0.19%                    0               0.00%

 54             Medical supply company                                                  46                         0.01%                    0               0.00%

 58             Med supply w/pharmacist                                                  1                         0.00%                    0               0.00%

 59             Ambulance service supplier**                                             0                         0.00%                    0               0.00%

 60             Public hlth/welfare agency                                               1                         0.00%                    1               0.00%

 63             Portable X-ray supplier                                             3,688                          0.59%                   48               0.00%

 65             Physical therapist                                                       0                         0.00%                    2               0.00%

 66             Rheumatology                                                          204                          0.03%               25,002               0.92%

 68             Clinical psychologist**                                                  0                         0.00%                    0               0.00%

 69             Clinical laboratory                                                 2,476                          0.39%                    8               0.00%

 70             Multispec clinic/group                                             13,339                          2.12%                1,384               0.05%

 71             Diagnostic X-ray**                                                       0                         0.00%                    0               0.00%

 72             Diagnostic laboratory                                                    0                         0.00%                1,156               0.04%

 74             Occupational therapy                                                     0                         0.00%                    1               0.00%

 75             Other medical care**                                                     0                         0.00%                    0               0.00%

 76             Peripheral vascular disease                                              0                         0.00%                   12               0.00%

 77             Vascular surgery                                                         9                         0.00%                   61               0.00%

 78             Cardiac surgery                                                          1                         0.00%                   14               0.00%

 79             Addiction medicine**                                                     0                         0.00%                    0               0.00%

 80             Licensed clin social worker**                                            0                         0.00%                    0               0.00%

 81             Critical care (intensivists)                                             0                         0.00%                  177               0.01%

 82             Hematology                                                              14                         0.00%                   45               0.00%

 83             Hematology/oncology                                                   191                          0.03%                1,919               0.07%

 84             Preventive medicine                                                      0                         0.00%                  200               0.01%

 85             Maxillofacial surgery                                                    2                         0.00%                    2               0.00%

 86             Neuropsychiatry                                                          0                         0.00%                    1               0.00%

 87             All other suppliers                                                      2                         0.00%                    0               0.00%

 88             Unkn suppl/provider spclty                                          1,409                          0.22%                    1               0.00%

 89             Cert clin nurse specialist**                                             0                         0.00%                    0               0.00%

 90             Medical oncology                                                      194                          0.03%                  412               0.02%

 91             Surgical oncology                                                        0                         0.00%                  372               0.01%

 92             Radiation oncology                                                    207                          0.03%                7,093               0.26%

 93             Emergency medicine                                                      92                         0.01%                2,935               0.11%

 94             Interventional radiology                                           10,820                          1.72%               28,404               1.04%

 95             Indep physiological lab                                            32,530                          5.16%                    2               0.00%

 97             Physician assistant                                                      0                         0.00%                1,684               0.06%

 98             Gynecologist/oncologist**                                                0                         0.00%                    0               0.00%

 99             Unknown physician specialty                                             90                         0.01%                  388               0.01%

   Total                                                                       629,963                         100.00%            2,729,321             100.00%
 * As listed in CMS documentation.

 ** Specialty billed at least one advanced imaging service between 1995 and 2005, even though counts in 1995 and 2005 were zero.




          OEI-01-06-00260                 GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE               25
      A   P    P E N D                 I X ~           B          



Table 6: Number and Percentage of PET Services Billed Under the MPFS, by Provider Specialty, in 1996 and 2005


 Specialty                                                              Number of PET                  Percentage of PET        Number of PET     Percentage of PET
 Code           Specialty Description*                                   services, 1996                    services, 1996        services, 2005       services, 2005

 01             General practice                                                          2                        0.30%                   173               0.08%

 02             General surgery                                                           0                        0.00%                   185               0.08%

 03             Allergy/immunology                                                        0                        0.00%                     2               0.00%

 04             Otolaryngology                                                            0                        0.00%                    16               0.01%

 05             Anesthesiology                                                            0                        0.00%                    77               0.03%

 06             Cardiology                                                             602                        90.25%                 5,803               2.54%

 07             Dermatology                                                               0                        0.00%                    27               0.01%

 08             Family practice                                                           1                        0.15%                   185               0.08%

 10             Gastroenterology                                                          0                        0.00%                    40               0.02%

 11             Internal medicine                                                         6                        0.90%                 1,432               0.63%

 13             Neurology                                                                 0                        0.00%                   658               0.29%

 16             Obstetrics/gynecology                                                     0                        0.00%                     4               0.00%

 18             Ophthalmology                                                             0                        0.00%                     2               0.00%

 20             Orthopedic surgery**                                                      0                        0.00%                     0               0.00%

 22             Pathology                                                                 0                        0.00%                    58               0.03%

 24             Plastic surgery                                                           0                        0.00%                     2               0.00%

 25             Physical medicine/rehab**                                                 0                        0.00%                     0               0.00%

 26             Psychiatry                                                                0                        0.00%                     1               0.00%

 29             Pulmonary disease                                                         0                        0.00%                   536               0.23%

 30             Diagnostic radiology                                                     24                        3.60%                81,695              35.76%

 33             Thoracic surgery                                                          0                        0.00%                    13               0.01%

 34             Urology                                                                   3                        0.45%                    38               0.02%

 36             Nuclear medicine                                                          9                        1.35%                18,366               8.04%

 37             Pediatric medicine                                                        1                        0.15%                     0               0.00%

 39             Nephrology                                                                0                        0.00%                    17               0.01%

 43             CRNA, anesth asst**                                                       0                        0.00%                     0               0.00%

 44             Infectious disease                                                        0                        0.00%                     2               0.00%

 45             Mammog screening center**                                                 0                        0.00%                     0               0.00%

 46             Endocrinology                                                             0                        0.00%                    56               0.02%

 47             IDTF                                                                      0                        0.00%                88,347              38.67%

 48             Podiatry**                                                                0                        0.00%                     0               0.00%

 50             Nurse practitioner                                                        0                        0.00%                     2               0.00%

 63             Portable X-ray supplier                                                   0                        0.00%                   266               0.12%

 65             Physical therapist                                                        0                        0.00%                     2               0.00%

 66             Rheumatology                                                              0                        0.00%                     2               0.00%

 69             Clinical laboratory                                                      18                        2.70%                     0               0.00%

 70             Multispec clinic/group                                                    0                        0.00%                   438               0.19%

 72             Diagnostic laboratory                                                     0                        0.00%                   193               0.08%

 74             Occupational therapy                                                      0                        0.00%                   538               0.24%

 78             Cardiac surgery                                                           0                        0.00%                     1               0.00%
 * As listed in CMS documentation.

 ** Specialty billed at least one advanced imaging service between 1996 and 2005, even though counts in 1996 and 2005 were zero.





          OEI-01-06-00260                GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE               26
      A    P   P E N D                 I X ~           B          



Table 6 (continued): Number and Percentage of PET Services Billed Under the MPFS, by Provider Specialty, in
1996 and 2005

 Specialty                                                             Number of PET                   Percentage of PET       Number of PET     Percentage of PET
 Code           Specialty Description*                                  services, 1996                     services, 1996       services, 2005       services, 2005

 80             Licensed clin social worker**                                            0                        0.00%                     0               0.00%

 81             Critical care (intensivists)                                             0                        0.00%                    97               0.04%

 82             Hematology                                                               0                        0.00%                   690               0.30%

 83             Hematology/oncology                                                      1                        0.15%                14,811               6.48%

 89             Cert clin nurse specialist**                                             0                        0.00%                     0               0.00%

 90             Medical oncology                                                         0                        0.00%                 6,272               2.75%

 91             Surgical oncology                                                        0                        0.00%                   225               0.10%

 92             Radiation oncology                                                       0                        0.00%                 5,917               2.59%

 93             Emergency medicine                                                       0                        0.00%                    49               0.02%

 94             Interventional radiology                                                 0                        0.00%                   917               0.40%

 95             Indep physiological lab**                                                0                        0.00%                     0               0.00%

 98             Gynecologist/oncologist                                                  0                        0.00%                   285               0.12%

 99             Unknown physician specialty                                              0                        0.00%                     2               0.00%

   Total                                                                             667                       100.00%              228,442              100.00%
 * As listed in CMS documentation.

 ** Specialty billed at least one advanced imaging service between 1996 and 2005, even though counts in 1996 and 2005 were zero.





          OEI-01-06-00260                GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE                27
A   P     P E N D          I X ~          B          

    Table 7: Growth in Advanced Imaging Utilization Rates, 1995 to 2005, by
    State
                                                                                                  Percentage growth in
                      Services per 1,000                   Services per 1,000                      State utilization rate,
     State            beneficiaries, 1995                  beneficiaries, 2005                              1995 to 2005

     FL                                   85                                       326                             282%

     AZ                                   78                                       291                             273%

     NV                              101                                           291                             187%

     MD                                   64                                       275                             328%

     NY                                   87                                       248                             184%

     DE                                   74                                       240                             225%

     NJ                                   74                                       240                             226%

     DC                                   92                                       222                             141%

     TX                                   45                                       209                             368%

     WA                                   45                                       207                             360%

     MN                                   57                                       192                             237%

     CA                                   51                                       190                             271%

     AL                                   29                                       182                             526%

     PR                                   57                                       181                             218%

     RI                                   40                                       176                             344%

     AR                                   24                                       172                             630%

     TN                                   32                                       164                             408%

     LA                                   29                                       158                             446%

     CT                                   52                                       158                             205%

     WY                                   18                                       151                             721%

     GA                                   34                                       140                             317%

     KY                                   24                                       138                             473%

     SC                                   17                                       137                             682%

     AK                                   18                                       135                             657%

     NC                                   27                                       131                             391%

     KS                                   29                                       128                             341%

     MA                                   32                                       124                             287%

     IN                                   16                                       120                             632%

     OK                                   23                                       120                             420%

     PA                                   35                                       116                             234%

     CO                                   17                                       110                             536%

     ID                                   29                                       108                             275%

     MO                                   25                                       107                             331%

     OR                                   36                                       106                             192%

     NM                                   19                                       105                             459%

     MS                                   12                                       102                             727%

     WI                                   29                                         97                            238%

     OH                                   17                                         95                            446%

     UT                                    8                                         90                          1,064%

     IL                                   22                                         89                            306%



    OEI-01-06-00260         GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   28
A    P      P E N D     I X ~          B          



Table 7 (continued): Growth in Advanced Imaging Utilization Rates, 1995
to 2005, by State
                                                                                             Percentage growth in
                 Services per 1,000                   Services per 1,000                      State utilization rate,
    State        beneficiaries, 1995                  beneficiaries, 2005                              1995 to 2005

    IA                             8                                           77                             842%

    ME                            31                                           76                             143%

    MT                            19                                           76                             296%

    HI                             9                                           73                             689%

    VA                            11                                           72                             553%

    MI                            22                                           71                             229%

    ND                            55                                           67                               24%

    NE                            14                                           67                             364%

    SD                            21                                           59                             181%

    WV                            10                                           40                             297%

    NH                             6                                           33                             472%

    VT                             1                                             8                            597%




    OEI-01-06-00260      GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   29
Δ   A P P E N D I X ~ C




OEI-01-06-00260   GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   30
A   P   P E N D       I X ~         C          





    OEI-01-06-00260   GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   31
A   P   P E N D       I X ~         C          





    OEI-01-06-00260   GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   32
A
B   P
    A P
      N EN NE DR I X2 N ~D                    AP A G E
Δ       A AC CK KN NO OW WL LE ED DG GM ME EN NT TS S



                      This report was prepared under the direction of Joyce M. Greenleaf,
                      Regional Inspector General for Evaluation and Inspections in the
                      Boston regional office, and Russell W. Hereford, Deputy Regional
                      Inspector General. Kenneth R. Price served as the team leader for
                      this study. Other principal Office of Evaluation and Inspections staff
                      from the Boston regional office who contributed include Eric Kim and
                      Amanda L. Pyles, and central office staff includes Doris Jackson.




    OEI-01-06-00260   GROWTH   IN   A D VA N C E D I M A G I N G PA I D U N D E R   THE   MEDICARE PHYSICIAN FEE SCHEDULE   33
